OIG Investigative Reports, School Administrator Guilty of Federal Grant Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
January 14, 2004
United States Attorney
Western District of Wisconsin
(608) 264-5158
TTY (608) 264-5006
Contact Person:
Stephen Ehlke
Peter M. Jarosz
Assistant United States Attorney
(608) 264-5158
School Administrator Guilty of Federal Grant Fraud
Madison, Wisconsin  - Stepehen P. Sinnott, First Assistant United States Attorney for the Western District of Wisconsin, announced that Thomas Flaschberger of Hayward , Wisconsin, DOB: 3/21/1950, was found guilty yesterday evening of three counts of mail fraud in United States District Court in Madison after a two day jury trial.  United States District Judge John C. Shabaz scheduled sentencing for March 30, 2004, at 1:15 p.m.  Flaschberger faces a maximum sentence of twenty years in prison and a $250,000 fine on each count.   The defendant will also be ordered to pay restitution.
The trial established that Thomas Flaschberger was employed by the Lac Courte Oreilles Ojibwa Community College in Hayward, Wisconsin and acted as the Administrator of Perkins Grants for the Consortium of Indian Controlled Community Colleges.   Perkins Grants are federal education funds, administered through the state, and distributed to schools and school districts who have a certain number of disadvantaged students and provide services for those students such as counseling and guidance, assistance with test taking, and weekly evaluations.
In 1994, the Lac Courte Oreilles Ojibwa Community College and the College of Menominee Nation entered into an agreement to obtain and share Perkins Grants because each school, by itself, did not have a sufficient number of qualified students to obtain the grants.  From 1994 through 2001, the consortium received over $900,000 in Perkins Grants.
By 1995, the defendant, Thomas Flaschberger was placed in charge of the grants.  In that capacity, he certified to state officials the number of qualified students at the school and that services were being provided.  An audit conducted in 2001 discovered that the student numbers between 1997 and 2001 were being grossly inflated - in some cases they were nearly doubled.  In addition, virtually none of the services required by the grant were being provided to the students.
First Assistant United States Attorney, Stephen P. Sinnott, wished to emphasize the importance of the conviction:   "Flaschberger's crimes directly attacked the integrity of crucial federal educational programs.  He victimized those students at the Lac Courte Oreilles Community College who did not receive the important educational support they should have received.  In addition, he victimized students at other colleges since by his crimes he took money which otherwise would have been available to assist them in their education."
The charges against Thomas Flaschberger were the result of an investigation conducted by the Department of Education, Office of the Inspector General - Investigative Services.   The prosecution was handled by Assistant United States Attorneys Stephen Ehlke and  Peter M. Jarosz.
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov